No. 20-828

In the Supreme Court of the United States
FEDERAL BUREAU OF
INVESTIGATION, et al.,

Petitioners,

v.
YASSIR FAZAGA,

et al.
Respondents.

On Writ of Certiorari to the United States Court of Appeals for the Ninth
Circuit
RESPONDENTS’ APPLICATION FOR LEAVE TO FILE OPPOSITION
BRIEF IN EXCESS OF WORD LIMITS

Dan Stormer
Shaleen Shanbhag
HADSELL STORMER
RENICK & DAI LLP
128 North Fair Oaks
Avenue
Pasadena, CA 91103

Ahilan Arulanantham
Counsel of Record
UCLA SCHOOL OF LAW
385 Charles Young Drive East
Los Angeles, CA 90095
(310) 825-1029
arulanantham@law.ucla.edu

Amr Shabaik
Dina Chehata
CAIR-LOS ANGELES
2180 W. Crescent
Avenue, Suite F
Anaheim, CA 92801

Peter Bibring
Mohammad Tajsar
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA
1313 West Eighth Street
Los Angeles, CA 90017

Pursuant to Supreme Court Rules 22 and 33.1(d), Respondents respectfully
request leave to file a brief on the merits in excess of the word limit, up to a total of
17,000 words, to respond to the three top-side briefs, which contain a combined total
of 24,869 words.
1.

This case concerns a challenge to a Government surveillance operation

conducted between 2006 and 2007 in Orange County by the Federal Bureau of
Investigation that Respondents allege violated their right to freedom of religion.
Respondents sued the United States, the FBI, the FBI’s director in his official
capacity, the assistant director in charge of the FBI’s Los Angeles field office in his
official capacity (collectively “Petitioners”), and five individual FBI agents
(“Individual Capacity Respondents”). Respondents brought a total of eleven claims,
including one under the Foreign Intelligence Surveillance Act (“FISA”), 50 U.S.C.
1810. After the district court dismissed all but Respondents’ FISA claim on state
secrets grounds, the court of appeals reversed in part, holding that FISA’s
procedures for in camera ex parte review codified at 50 U.S.C. 1806 displace the
state secrets privilege’s dismissal remedy in electronic surveillance cases. Fazaga v.
FBI, 965 F.3d 1015 (9th Cir. 2020). Petitioners successfully sought certiorari before
this Court, with support from the five Individual Capacity Respondents.
2.

On July 30, 2021, Petitioners and the Individual Capacity Respondents

filed three opening briefs. The Individual Capacity Respondents’ two briefs contain
8,424 words and 3,795 words, respectively. The first has approximately 14 pages of
argument, and the second approximately 8 pages of argument. These briefs raise

1

various legal arguments absent from Petitioners’ opening brief, including extensive
argument concerning the Seventh Amendment and Due Process Clause that
Petitioners never made.
3.

To respond to all the arguments raised in the three top-side briefs,

Respondents request 4,000 additional words, or approximately 15 additional pages.
Respondents believe this additional space is necessary to respond adequately to the
22 additional pages of separate argument raised by the top-side parties.
4.

Petitioners’ and Individual Capacity Respondents’ counsel take no

position on this request. This application is timely under Rule 33.1(d), as
Respondents have submitted it more than 15 days before the date on which
Respondents’ brief is due, which is September 21, 2021.
Respectfully submitted,

/s/ Ahilan Arulanantham
Ahilan Arulanantham
UCLA SCHOOL OF LAW
385 Charles Young Drive East
Los Angeles, CA 90095
(310) 825-1029
arulanantham@law.ucla.edu
Counsel of Record for Respondents

2

